HHS/OIG, Audit - "Review of the Medicaid Drug Rebate Program In
Minnesota," (A-05-08-00010)
Department of Health and Human Services
Office of Inspector General -- AUDIT
"Review of the Medicaid
Drug Rebate Program In Minnesota," (A-05-08-00010)
April 14, 2008
Complete
Text of Report is available in PDF format (1.79 mb). Copies can also be obtained by
contacting the Office of Public Affairs at 202-619-1343.
EXECUTIVE SUMMARY:
In a follow-up audit of Minnesotas Medicaid drug rebate
program, we found that, as of June 30, 2006, the State had
established controls for collecting rebates on
single-source drugs administered by physicians.  Manufacturers may make
their outpatient drugs eligible for Federal Medicaid funding by entering into a
rebate agreement with CMS and paying quarterly rebates to the States.
Because the State had adequate controls over its
drug rebate program, we made no recommendations.